      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                         Washington, D.C. 20201




November 3, 2009

TO:            Charlene Frizzera
               Acting Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Review of Medicare Contractor Information Security Program Evaluations for
               Fiscal Year 2006 (A-18-07-30290)


The attached final report provides the results of our Medicare contractor information security
program evaluations for fiscal year (FY) 2006. Our objectives were to (1) assess the scope and
sufficiency of Medicare contractor information security program evaluations and data center
technical assessments and (2) report the results of those evaluations and assessments.

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 added
information security requirements for Medicare administrative contractors, fiscal intermediaries,
and carriers to section 1874A of the Social Security Act (the Act) (42 U.S.C. § 1395kk:-l).
These contractors process and pay Medicare fee-for-service claims. Pursuant to section
1874A(e) of the Act, each Medicare contractor must have its information security program
evaluated annually by an independent entity. Section 1874A(e) of the Act requires that these
evaluations address the eight major requirements enumerated in the Federal Information Security
Management Act of 2002 (FISMA). (See 44 U.S.C. § 3544(b).) To comply with this provision,
the Centers for Medicare & Medicaid Services (CMS) contracted with PricewaterhouseCoopers
to evaluate information security programs at the Medicare administrative contractors, fiscal
intermediaries, and carriers using a set of agreed-upon procedures.

Section 1874A(e) of the Act also requires an evaluation of the information security controls for a
subset of systems but does not specify the criteria for these evaluations. To satisfy these
requirements, CMS developed an information security assessment methodology to test segments
of the claims processing systems at Medicare data centers. Data centers operate the computer
systems that process and pay Medicare fee-for-service claims. CMS contracted with JANUS
Associates, Inc. (JANUS), to perform technical assessments at Medicare data centers using the
assessment methodology.

Section 1874A(e) of the Act further requires the Inspector General, Department of Health and
Human Services, to submit to Congress annual reports on the results of these evaluations, to
Page 2 – Charlene Frizzera


include assessments of their scope and sufficiency. This report fulfills that responsibility for
FY 2006.

PricewaterhouseCoopers reviews of the contractor information security program evaluations
were adequate in scope and sufficiency. We could not determine the extent and sufficiency of
the JANUS work for the data center technical assessments because of several issues with their
working papers. CMS’s contract with JANUS provided for the planning, development, and
implementation of a comprehensive program to perform security testing of information controls
at Medicare data centers.

We recommend that CMS review all contractor documentation related to future data center
technical assessments and ensure that the work performed complies with CMS contractual
requirements. At a minimum, this should include a review of test plans to ensure that the
contractor has completed all required testing procedures and a review of contractor working
papers to verify that reported gaps have been adequately supported, identified, and included in
the technical assessment reports.

In written comments to our draft report, CMS concurred with our recommendation.

Section 8L of the Inspector General Act, 5 U.S. C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send your final management decision, including any action plans, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal
Activities, and Information Technology Audits at (202) 619-1175 or through email at
Lori.Pilcher@oig.hhs.gov. Please refer to report number A-18-07-30290 in all correspondence.


Attachment
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




      REVIEW OF MEDICARE
    CONTRACTOR INFORMATION
       SECURITY PROGRAM
        EVALUATIONS FOR
        FISCAL YEAR 2006




                       Daniel R. Levinson
                        Inspector General

                        November 2009
                        A-18-07-30290
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 added
information security requirements for Medicare administrative contractors (MAC), fiscal
intermediaries, and carriers to the Social Security Act (the Act). These contractors process and
pay Medicare fee-for-service claims. Each Medicare contractor must have its information
security program evaluated annually by an independent entity, and these evaluations must
address the eight major requirements enumerated in the Federal Information Security
Management Act of 2002 (FISMA). To comply with this provision, the Centers for Medicare &
Medicaid Services (CMS) contracted with PricewaterhouseCoopers (PwC) to evaluate
information security programs at the MACs, fiscal intermediaries, and carriers using a set of
agreed-upon procedures.

The Act also requires evaluations of the information security controls for a subset of systems but
does not specify the criteria for these evaluations. To satisfy this requirement, CMS developed
an information security assessment methodology to test segments of the claims processing
systems at Medicare data centers, which operate the computer systems that process and pay
Medicare fee-for-service claims. CMS contracted with JANUS Associates, Inc. (JANUS), to
perform technical assessments at Medicare data centers using the assessment methodology.

The Inspector General, Department of Health and Human Services, must submit to Congress
annual reports on the results of these evaluations, to include assessments of their scope and
sufficiency. This report fulfills that responsibility for fiscal year (FY) 2006.

OBJECTIVES

Our objectives were to (1) assess the scope and sufficiency of Medicare contractor information
security program evaluations and data center technical assessments and (2) report the results of
those evaluations and assessments.

SUMMARY OF RESULTS

PwC’s reviews of the contractor information security program evaluations were adequate in
scope and sufficiency. We could not determine the extent and sufficiency of the JANUS work
for the data center technical assessments because of several issues with its working papers. PwC
reported a total of 110 gaps at 29 Medicare contractors. JANUS reported a total of 115 gaps at
14 data centers.

Assessment of Scope and Sufficiency

PwC’s reviews of the contractor information security program evaluations adequately
encompassed in scope and sufficiency the eight FISMA requirements referenced in the Act.




                                                 i
We could not determine the extent and sufficiency of the JANUS work for the data center
technical assessments because of several issues with its working papers, such as insufficient
evidence that all of the testing procedures had been performed, illegible handwriting and the lack
of cross-references, and incomplete or undocumented elements. For one data center, JANUS did
not include a gap identified during testing in the data center’s report.

Results of Evaluations and Assessments

The results of the contractor information security program evaluations and data center technical
assessments are presented in terms of gaps, which are defined as the differences between FISMA
or CMS core security requirements and the contractors’ implementation of those requirements.

Results of Contractor Information Security Program Evaluations

In the 29 PwC evaluation reports for FY 2006, which covered all MACs, fiscal intermediaries,
and carriers, PwC identified a total of 110 gaps. The number of gaps per contractor ranged from
0 to 10 and averaged 4. The most gaps occurred in the following FISMA control areas: testing
of information security controls (44 gaps at 20 contractors), policies and procedures to reduce
risk (22 gaps at 14 contractors), security program and system security plans (15 gaps at 13
contractors), and security awareness training (14 gaps at 10 contractors).

The number of gaps reported in the PwC FY 2006 evaluation reports increased by approximately
20 percent when compared to the results for FY 2005, and the number of contractors with no
gaps decreased by a third.

Results of Data Center Technical Assessments

The 14 Medicare data center technical assessment reports prepared by JANUS identified a total
of 115 gaps. The number of gaps reported per data center ranged from 0 to 30 and averaged 8.
Most of the security gaps occurred in the following security control categories: access control
(42 gaps at 6 data centers); configuration management (17 gaps at 4 data centers); media
protection (9 gaps at 6 data centers); and certification, accreditation, and security assessments (8
gaps at 4 data centers).

The total number of gaps identified in FY 2006 (115) was 76 gaps more than the number
identified in FY 2005 (39). We did not perform a detailed comparison of the number of gaps
identified within each security control category for the 2 FYs because of the significant changes
in the scope and assessment categories reviewed by JANUS in FY 2006.

Of the 115 gaps JANUS identified at the 14 data centers, 21 gaps were resolved and closed
during or after JANUS’s onsite visits to the data centers. Hence, there were a total of 94 open
gaps at data centers requiring corrective action in FY 2006.




                                                 ii
RECOMMENDATION

We recommend that CMS review all contractor documentation related to future data center
technical assessments and ensure that the work performed complies with CMS contractual
requirements. At a minimum, this should include a review of test plans to ensure that the
contractor has completed all required testing procedures and a review of contractor working
papers to verify that reported gaps have been adequately supported, identified, and included in
the technical assessment reports.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments to our draft report, CMS concurred with our recommendation. CMS also
stated that they have taken the appropriate actions to address the identified issues. We have
included CMS’s comments in their entirety in Appendix G.




                                                iii
                                                  TABLE OF CONTENTS


                                                                                                                            Page

INTRODUCTION............................................................................................................. 1

          BACKGROUND .....................................................................................................1
              The Medicare Program ................................................................................. 1
              Medicare Prescription Drug, Improvement, and
               Modernization Act of 2003........................................................................ 1
              Centers for Medicare & Medicaid Services Evaluation Process
               for Fiscal Year 2006................................................................................... 2

          OBJECTIVES, SCOPE, AND METHODOLOGY.................................................3
              Objectives ..................................................................................................... 3
              Scope............................................................................................................. 3
              Methodology ................................................................................................. 3

RESULTS OF REVIEW .................................................................................................. 4

          ASSESSMENT OF SCOPE AND SUFFICIENCY ................................................4

          RESULTS OF CONTRACTOR INFORMATION SECURITY PROGRAM
          EVALUATIONS .....................................................................................................4
              Testing of Information Security Controls ..................................................... 6
              Policies and Procedures To Reduce Risk...................................................... 7
              Security Programs and System Security Plans ............................................. 7
              Security Awareness Training........................................................................ 8

          RESULTS OF DATA CENTER TECHNICAL ASSESSMENTS .........................9
              Access Control ............................................................................................ 12
              Identification and Authentication ............................................................... 13
              Configuration Management ........................................................................ 13
              Maintenance................................................................................................ 13
              Media Protection......................................................................................... 13
              Awareness and Training ............................................................................. 14

          CONCLUSION......................................................................................................14

          RECOMMENDATION .........................................................................................14

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ..........14

APPENDIXES

        A – ASSESSMENT OF SCOPE AND SUFFICIENCY FOR THE JANUS DATA
           CENTER ASSESSMENTS


                                                                    iv
B – LIST OF GAPS BY FEDERAL INFORMATION SECURITY MANAGEMENT
   ACT OF 2002 CONTROL AREA AND MEDICARE CONTRACTOR

C – PERCENTAGE CHANGE IN GAPS PER MEDICARE CONTRACTOR

D – MEDICARE CONTRACTOR CHANGE IN TOTAL GAPS BY FEDERAL
   INFORMATION SECURITY MANAGEMENT ACT OF 2002 CONTROL AREA

E – RESULTS OF MEDICARE CONTRACTOR EVALUATIONS FOR FEDERAL
    INFORMATION SECURITY MANAGEMENT ACT OF 2002 CONTROL AREAS
    WITH THE GREATEST NUMBER OF GAPS

F – LIST OF GAPS BY NATIONAL INSTITUTE OF STANDARDS AND
    TECHNOLOGY SECURITY CONTROL AREA AND DATA CENTER

G – CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                             v
                                             INTRODUCTION


BACKGROUND

The Medicare Program

The Centers for Medicare & Medicaid Services (CMS) administers the Medicare program.
Medicare is a health insurance program for people age 65 or older, people under age 65 with
certain disabilities, and people of all ages with end-stage renal disease. In fiscal year (FY) 2006,
Medicare paid more than $337 billion on behalf of over 43 million program beneficiaries. CMS
contracts with Medicare Administrative Contractors (MAC), fiscal intermediaries, and carriers to
administer Medicare benefits paid on a fee-for-service basis. Many MACs, fiscal intermediaries,
and carriers operate in-house data centers to process and pay Medicare claims, while others
subcontract with external data centers for this purpose.

In FY 2006, 29 distinct corporate entities served as fiscal intermediaries, carriers, or both. Two
of these entities also served as Durable Medical Equipment MACs. Nine of the twenty-nine
entities also operated Medicare data centers, and five external entities operated the remaining
five data centers. Thus, 34 distinct entities processed and paid Medicare fee-for-service claims.

Medicare Prescription Drug, Improvement, and Modernization Act of 2003

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA) added
information security requirements for MACs, fiscal intermediaries, and carriers to section 1874A
of the Social Security Act (the Act). 1 (See 42 U.S.C. § 1395kk-1.) Pursuant to section
1874A(e)(1) of the Act, each MAC, fiscal intermediary, and carrier must have its information
security program evaluated annually by an independent entity. This section requires that these
evaluations address the eight major requirements enumerated in the Federal Information Security
Management Act of 2002 (FISMA). (See 44 U.S.C. § 3544(b).) These requirements, referred to
as “FISMA control areas” in this report, are:

        1. periodic risk assessments,
        2. policies and procedures to reduce risk,
        3. security program and system security plans,
        4. security awareness training,
        5. testing of information security controls,
        6. remedial actions,
        7. incident response, and
        8. continuity-of-operations planning.

Section 1874A(e)(2)(A)(ii) of the Act requires that the effectiveness of information security
controls be tested for an appropriate subset of Medicare contractors’ information systems.

1
 The MMA contracting reform provisions added to section 1874A of the Act replace existing fiscal intermediaries
and carriers with MACs, who are to be competitively selected. Until such time as the new MACs are in place, the
requirements of section 1874A apply to fiscal intermediaries and carriers.


                                                        1
However, this section does not specify the criteria for evaluating these security controls. CMS
and its information technology (IT) security assessment provider, JANUS Associates, Inc.,
(JANUS), developed an information security assessment methodology to comply with this
provision.

Additionally, section 1874A(e)(2)(C)(ii) of the Act requires the Inspector General of the
Department of Health and Human Services to submit to Congress annual reports on the results of
such evaluations, including assessments of their scope and sufficiency. This report fulfills that
responsibility for FY 2006.

Centers for Medicare & Medicaid Services Evaluation Process for Fiscal Year 2006

CMS developed agreed-upon procedures (AUP) for the program evaluation based on the
requirements of Section 1874A(e)(1) of the Act, FISMA, information security policy and
guidance from the Office of Management and Budget and the National Institute of Standards and
Technology (NIST), and the Government Accountability Office’s (GAO) “Federal Information
Systems Controls Audit Manual” (FISCAM). The independent auditors,
PricewaterhouseCoopers (PwC), under contract with CMS, used the AUPs to evaluate the
information security programs at the 29 MACs, fiscal intermediaries, and carriers. The AUPs
are the same as those used in FY 2005. PwC performed the evaluations and issued separate
reports for the 29 MACs, fiscal intermediaries, and carriers.

To comply with the section 1874A(e)(2)(A)(ii) requirement to test the effectiveness of
information security controls for an appropriate subset of contractors’ information systems, CMS
contracted with JANUS to plan, develop, and implement a comprehensive program to perform
testing of information security controls at 14 Medicare data centers. JANUS performed the
assessments and issued separate reports for each of the 14 Medicare data centers.

Table 1 summarizes the change in the number of Medicare contractors and data centers. In
FY 2005, there were 32 Medicare contractors and 14 Medicare data centers. Changes during
FY 2006 resulted in the testing of 29 Medicare contractors and 14 Medicare data centers.

       Table 1: Change in the Number of Medicare Contractors and Data Centers
                                                              Medicare       Medicare
                                                             Contractors Data Centers
Ending Balance, FY 2005                                           32           14
Less: Entities that left the Medicare program during FY 2006       5            1
Add: Durable Medical Equipment MACs                                2
Add: Enterprise data centers 2                                                  1
Beginning Balance, FY 2006                                        29           14




2
 As part of CMS’s data center consolidation initiative, enterprise data centers are being used to process Medicare
fee-for-service claims. Eventually all CMS data center operations will transition from the 14 legacy data centers to
at most three enterprise data centers.

                                                          2
OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to (1) assess the scope and sufficiency of Medicare contractor information
security program evaluations and data center technical assessments and (2) report the results of
those evaluations and assessments.

Scope

We evaluated the FY 2006 results of the independent evaluations and technical assessments of
Medicare contractors’ information security programs. Our review did not include an evaluation
of internal controls. We performed our reviews of PwC and JANUS working papers at CMS
headquarters in Baltimore, Maryland, and at Office of Inspector General regional offices.

Methodology

To accomplish our objectives, we performed the following steps:

           To assess the scope of the evaluations of contractor information security programs,
            we determined whether the AUPs included the eight FISMA control requirements.

           To assess the scope of the data center technical assessments, we reviewed the contract
            and statement of work between CMS and JANUS and verified that JANUS performed
            the work that CMS had specified.

           To assess the sufficiency of the evaluations of contractor information security
            programs, we reviewed PwC working papers supporting the evaluation reports to
            determine whether they conducted the AUPs listed in the reports. We also
            determined whether PwC conducted the evaluations in accordance with attestation
            engagement standards established by the American Institute of Certified Public
            Accountants and in accordance with Government Auditing Standards. In addition, we
            determined whether the evaluation reports encompassed the eight FISMA control
            areas enumerated in section 1874A(e)(1) of the Act.

           To assess the sufficiency of the data center technical assessments, we reviewed
            supporting working papers to verify that JANUS completed all test procedures,
            reported all medium- and high-risk gaps, and adequately supported all reported results
            with sufficient and appropriate evidence.

           To report on the results of the JANUS evaluations and technical assessments, we
            aggregated the results contained in the individual contractor evaluation reports and
            data center technical assessment reports. For the PwC evaluations, we used the
            number of gaps listed in the individual contractor evaluation reports to aggregate the
            results. In some instances, several gaps were noted under FISMA control
            subcategories. This was different from prior years, when PwC noted only one gap per

                                                3
           subcategory per contractor. We counted duplicate gaps listed in a FISMA control
           area only once. For the JANUS assessments, we used the business risks listed in the
           individual technical assessment reports to aggregate the results.

We conducted this performance audit in accordance with generally accepted government
auditing standards, except that we did not obtain comments from JANUS or PwC. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

                                    RESULTS OF REVIEW

PwC’s reviews of the contractor information security program evaluations were adequate in
scope and sufficiency. We could not determine the extent and sufficiency of the JANUS work
for the data center technical assessments because of several issues with its working papers. PwC
reported a total of 110 gaps at 29 Medicare contractors. Janus reported a total of 115 gaps at 14
data centers.

ASSESSMENT OF SCOPE AND SUFFICIENCY

PwC’s reviews of the contractor information security program evaluations adequately
encompassed in scope and sufficiency the eight FISMA requirements referenced in section
1874A(e)(1) of the Act.

We could not determine the extent and sufficiency of the JANUS work for the data center
technical assessments because of several issues with its working papers. CMS’s contract with
JANUS provided for the planning, development, and implementation of a comprehensive
program to perform testing of information security controls at Medicare data centers.

The test plan documentation supplied by JANUS for 11 of the 14 data centers (78 percent) did
not contain sufficient evidence that all of the testing procedures had been performed. For the test
plans provided, JANUS did not always indicate whether it actually completed each testing
procedure. Additionally, for 8 of the 14 data centers (57 percent), we were unable to trace all
gaps presented in JANUS’ reports to supporting evidence because of illegible handwriting and
the lack of cross-references in the test scripts. Lastly, for 7 of the 14 data centers (50 percent),
we were not able to determine whether JANUS included all medium- and high-risk gaps in the
respective data center reports because of incomplete or undocumented elements in the JANUS
working papers. For one data center, JANUS did not include a gap identified during testing in
the data center’s report. (See Appendix A for our analysis of the JANUS data center
assessments.)

RESULTS OF MEDICARE CONTRACTOR INFORMATION SECURITY PROGRAM
EVALUATIONS

We present the results of the Medicare contractor information security program evaluations in
terms of gaps, which are defined as the differences between FISMA or CMS core security

                                                 4
requirements and the contractors’ implementation of those requirements.

The 29 evaluation reports identified a total of 110 gaps. The average number of gaps per
contractor was four. As shown in Table 2, the number of gaps per contractor ranged from 0 to
10 for FY 2006. (See Appendix B for list of gaps per control area by contractor.)

                       Table 2: Range of Medicare Contractor Gaps
                                      Number of Contractors With
                       Total                      2–5      6–9    10+
               FY      Gaps 0 Gaps 1 Gap         Gaps     Gaps    Gaps
              2005       92       9       7         8       7      1
              2006      110       6       3        12       7      1

The number of gaps reported in the PwC FY 2006 evaluation reports increased by approximately
20 percent when compared to the results for FY 2005, and the number of contractors with no
gaps decreased by a third. (See Appendix C for the FYs 2005–2006 percentage change in gaps
per Medicare contractor.)

Table 3 summarizes the gaps found in each FISMA control area in FY 2005 and FY 2006. The
two FISMA control areas experiencing a change of over 100 percent were: (1) testing of
information security controls and (2) policies and procedures to reduce risk. The three FISMA
control areas that changed between 50 percent and 100 percent were: (1) periodic risk
assessments, (2) incident response, and (3) continuity of operations planning. (Appendix D
summarizes the changes in a graph.)

      Table 3: Gaps by Federal Information Security Management Act Control Area
                                                                          No. of
                                                                      Contractors
                                      Impact Levels     No. of Gaps   with One or
                                        of FISMA         Identified   More Gap(s)
                FISMA                 Control Area      FY       FY    FY        FY
             Control Area             Subcategories    2005     2006  2005     2006
 Periodic risk assessments            High/Medium       6         2     5       2
 Policies and procedures to reduce
                                      High/Medium       9       22      7      14
 risk
 Security program and system
                                      High/Medium      16       15     14      13
 security plans
 Security awareness training          High/Medium      10       14      7      10
 Testing of information security
                                      High/Medium      21       44     14      20
 controls
 Remedial actions                        Medium         3         2     2       2
 Incident response                         High         6         3     5       3
 Continuity-of-operations planning         High        21         8    12       7
   Total                                               92      110



                                              5
The Medicare contractor information security program evaluations assessed several
subcategories within each FISMA control area. The “impact level” shown in Table 3 refers to
the possible level of adverse impact that could result from successful exploitation of gaps in any
of the FISMA controls area subcategories depending on the organization’s mission and criticality
and the sensitivity of the systems and data involved. CMS and independent auditors developed
ratings of high, medium, or low impact for the subcategories of the FISMA control areas. The
actual ratings assigned to the subcategories were all high or medium impact and were PwC’s
assessment. It is important to note that the impact levels were assigned to subcategories of the
FISMA control areas, not to individual gaps identified within the control areas or subcategories.
Individual gaps were assigned an overall risk level on a subjective basis by PwC after taking into
consideration the impact and likelihood of occurrence. However, as stated in NIST Special
Publication (SP) 800-115, “Technical Guide to Information Security Testing and Assessment,” it
is difficult to identify the risk level of individual vulnerabilities because they rarely exist in
isolation.

The following sections discuss the four FISMA control areas containing the most gaps. (See
Appendix E for descriptions of each subcategory tested.)

Testing of Information Security Controls

According to NIST SP 800-53, “Recommended Security Controls for Federal Information
Systems,” the effectiveness of information security policies, procedures, practices, and controls
should be tested and evaluated at least annually (or more often depending on risk). NIST
SP 800-115 notes that security testing allows organizations to measure levels of compliance in
areas such as patch management, password policy, and configuration management. According to
GAO’s FISCAM, changes to an application should be tested and approved before being put into
production.

Nine of the twenty-nine Medicare contractors had no identified gaps in the testing of information
security controls, while the remaining 20 had one to six gaps each. In total, 44 gaps were
identified in this area, with 42 gaps assigned to high-impact subcategories.

Following are examples of these gaps:

      A penetration assessment was not performed within the previous 12 months.

      An annual review or audit was not performed of platform configuration standards and
       patch management controls.

      Procedures for making changes to supplemental claims processing software did not
       include testing and approval of changes before the changes were put into production.

Without a comprehensive program for periodically testing and monitoring of information
security controls, management has no assurance that appropriate safeguards are in place to
adequately mitigate identified risks.


                                                6
Policies and Procedures To Reduce Risk

According to NIST SP 800-30, “Risk Management Guide for Information Technology Systems,”
risk management is the process of identifying and assessing risk and taking steps to reduce risk
to an acceptable level. NIST SP 800-53 requires organizations to establish mandatory security
configuration settings for information technology products, enforce the configuration settings in
all components of the information system, and promptly install newly released security relevant
patches and service packs.

Fifteen of the twenty-nine Medicare contractors had no identified gaps in policies and procedures
to reduce risk, while the remaining 14 had one to three gaps each. In total, 22 gaps were
identified in this area. Nine gaps were assigned to high-impact subcategories. Following are
examples of gaps in policies and procedures to reduce risk:

      Router configuration standards were not sufficient to adequately reduce the risk of
       unauthorized access to sensitive CMS information.

      Weaknesses were identified in the configuration standards for firewalls, Windows
       servers, and internal network security controls. The standards were not adequate to
       reduce the risk of unauthorized access to sensitive CMS information.

      The contractor had not developed detailed procedures for UNIX patch management and
       Windows security configurations.

Ineffective policies and procedures to reduce risk could jeopardize an organization’s ability to
perform its mission, as well as safeguard its information and IT assets. Without adequate
configuration standards and the latest security patches, systems may be susceptible to
exploitation that could lead to unauthorized disclosure, modification, or non-availability of data.

Security Program and System Security Plans

NIST SP 800-100, “Information Security Handbook: A Guide for Managers,” states that
agencies should ensure their information security policy is sufficiently current to accommodate
the information security environment and the agency mission and operational requirements.
Federal Information Processing Standards (FIPS) 200, “Minimum Security Requirements for
Federal Information and Information Systems” and NIST SP 800-53 require organizations to
screen employees before granting access to information and information systems.

NIST SP 800-18, “Guide for Developing Security Plans for Federal Information Systems,” states
that system security plans should provide an overview of a system’s security requirements and
describe the controls in place or planned for meeting those requirements.

Sixteen of the twenty-nine Medicare contractors had no identified gaps in security programs and
system security plans, while the remaining 13 had one to two gaps each. In total, 15 gaps were
identified in this area. Eight gaps were assigned to high-impact subcategories.


                                                 7
Following are examples of gaps in security programs and system security plans:

      The contractor did not review security policies and procedures within the previous 12
       months.

      The contractor did not complete background investigations for all selected employees
       before they received system access.

      The contractor did not maintain evidence that implemented corrective action plans had
       been tested.

If information security program requirements are not implemented and enforced, management
has no assurance that established system security controls will be effective in protecting valuable
assets, such as information, hardware, software, systems, and related technology assets that
support the organization’s critical missions.

Security Awareness Training

The Computer Security Act of 1987 (P.L. No. 100-235) requires periodic training in computer
security awareness and accepted computer practices for all employees who manage, use, or
operate Federal computer systems. Additionally, Federal regulations (5 C.F.R. § 930.301(a))
require that role-specific training be provided based on each user’s security responsibilities.
FIPS 200, “Minimum Security Requirements for Federal Information and Information Systems,”
and NIST SP 800-53 require organizations to provide security awareness training to all
information system users at least annually. Additionally, Federal regulations (5 C.F.R.
§ 930.301(a)) require agencies to provide training for employees with significant information
security responsibilities, and the CMS “Business Partners Systems Security Manual” requires
Medicare contractors to document and monitor information security training activities.

Nineteen of the twenty-nine Medicare contractors had no identified gaps in security awareness
training, while the remaining 10 had one to three gaps each. In total, 14 gaps were identified in
this area. One gap was assigned to a high-impact subcategory.

Following are examples of security awareness training gaps:

      Security training and professional development for employees with significant security
       responsibilities had not been documented or formally monitored.

      Employees did not complete security refresher training within 1 year.

Employees who are unaware of their security responsibilities or have not received adequate
training may be at increased risk of causing or exacerbating a computer security incident. If
security personnel are not provided specific job-related training, management has no assurance
that these employees can effectively perform their job responsibilities. Inadequately trained
employees could cause the loss, destruction, or misuse of sensitive information and IT assets.


                                                 8
RESULTS OF DATA CENTER TECHNICAL ASSESSMENTS

We present the results of the data center technical assessments in terms of gaps, which are
defined as the differences between FISMA or CMS core security requirements and the
contractors’ implementation of those requirements. The 14 Medicare data center technical
assessment reports identified a total of 115 gaps. The average number of gaps per data center
was eight. As shown in Table 4, the number of gaps per data center ranged from 0 to 30.

                               Table 4: Range of Data Center Gaps
                                         Number of Data Centers With:
                          Total              1–5      6–10    11–20 21–30
                FY        Gaps 0 Gaps Gaps            Gaps    Gaps    Gaps
               2005         39        1       12       1        0      0
               2006        115        1        6        3       3      1

For FY 2006, CMS contracted with JANUS to evaluate NIST security controls at the 14 data
centers. Overall, the FY 2006 testing addressed the following 12 NIST security control areas:

      access control                                      system and services acquisition

      media protection                                    personnel security

      certification, accreditation, and security          incident response
       assessments
                                                           e-authentication
      awareness and training
                                                           physical and environmental protection
      maintenance
                                                           system and communications protection
      identification and authentication

At eight data centers, JANUS conducted testing, which was limited to a policy and procedure
review only, in six of the above security control areas. At five data centers, JANUS tested all
twelve of the above NIST security control areas, in addition to a penetration test of mainframe
and distributed systems. During the course of its assessments, JANUS also identified gaps at
some data centers in three additional security control areas (i.e., configuration management,
system and information integrity, and audit and accountability).

At the enterprise data center, JANUS tested 18 NIST security control areas, in addition to a
penetration test of mainframe and distributed systems. The security controls tested were the 12
listed above plus system and information integrity, configuration management, audit and
accountability, contingency planning, security planning, and risk assessment.

JANUS assigned each of the gaps to one of the 18 security control areas. Like PwC, JANUS
categorized the risks associated with the individual gaps as high, medium, or low based on the
potential impact and likelihood of exploitation. Of the 115 gaps JANUS identified across all 14

                                                    9
data centers, 14 gaps were high risk, 37 gaps were medium risk, and 64 gaps were low risk.
Twenty-one gaps were resolved and closed during or after JANUS’s onsite visits to the data
centers, including 2 high-risk gaps, 6 medium-risk gaps, and 13 low-risk gaps. Hence, there
were a total of 94 open gaps at data centers requiring corrective action in FY 2006.

The total number of gaps identified in FY 2006 (115) was significantly higher than the number
identified in FY 2005 (39), an increase of 76 gaps. We did not perform a detailed comparison of
the number of gaps identified within each security control category for the 2 FYs because of the
significant changes in the scope and assessment categories reviewed by JANUS in FY 2006.
The FY 2005 data center assessments were limited to a policy and procedure review of six
control areas and did not involve technical security testing of data center networks and systems
as did the assessments in FY 2006.

Table 5 on the next page presents the aggregate results reported for the 14 data centers, including
the number of data centers with high-risk gaps. Appendix F shows the number of reported gaps
at each data center by security control area.




                                                10
                           Table 5: Data Center Reported Gaps by
           National Institute of Standards and Technology Security Control Area
                            No. of      No. of                     No. of
                            Data        Data          Total No.    High-      No. of  No. of
    Security Control       Centers     Centers         of Gaps     Risk     Medium- Low-Risk
         Area              Tested      w/ Gaps        Identified   Gaps     Risk Gaps Gaps
 Access control               6            6             42         11          12         19
 Configuration
                              6            4             17          3          12           2
 management
 Media protection            14            6              9          0            2          7
 Certification,
 accreditation, and          14            4              8          0            1          7
 security assessments
 Awareness and training      14            5              7          0            0          7
 Maintenance                 14            7              7          0            2          5
 Identification and
                              6            5              7          0            1          6
 authentication
 System and information
                              6            2              6          0            6          0
 integrity
 System and services
                             14            3              4          0            0          4
 acquisition
 Audit and
                              6            1              2          0            1          1
 accountability
 Personnel security           6            2              2          0            0          2
 Incident response           14            1              1          0            0          1
 E-authentication             6            1              1          0            0          1
 Physical and
 environmental                6            1              1          0            0          1
 protection
 System and
 communications               6            1              1          0            0          1
 protection
   Total                                               115          14          37         64

Note: JANUS reported no gaps in the following NIST security control areas: contingency
planning, security planning, and risk assessment.

Noteworthy from the results in the JANUS reports is that 10 of the 14 high-risk gaps (71 percent)
were identified at one of the 14 data centers. In addition, the 30 gaps reported at this data center


                                                 11
made up 26 percent of all identified gaps, and 26 of the 37 medium-risk gaps (70 percent) were
identified at three data centers.

Figure 1 uses the data from Table 5 to show the percentages of data centers with gaps (per NIST
security control area) in relation to the number of data centers tested. Gaps were identified at
more than one-third of data centers tested in the following NIST security control areas: access
control, identification and authentication, configuration management, maintenance, media
protection, and awareness and training.

          Figure 1: Percentage of Tested Data Centers to Data Centers with Gaps,
              by National Institute of Standards and Technology Control Area
                                             ic
                                               at
                                                 io
                                                   n
                        l
                      tro




                                           nt
                                         he
                    on




                                       ut
                   C




                                      A
                   s
                 es




                                                       t
                                     d




                                                     en
                                   an
               cc




                                                   em
              A




                                  n
                                io




                                                 ag




       100%
                              at




                                               an
                            ic




                                              M
                           tif
                         en




       90%
                                           n
                                         io
                       Id




                                                                                                                                         ity
                                         at




                                                                                                                                       gr
                                       ur




       80%                                                                                                                           te
                                    fig




                                                                                                                                     n
                                                                                                                                   In




                                                                                                                                  io
                                  on




                                                                                                                                   s




                                                                                                                                  n




                                                                                                                                  n
                                                                                                                                ng




                                                                                                                                nt
                                                                    n




                                                                                                                                ct
                                                                                                                                n
                                                     ce




                                                                                                                              tio




                                                                                                                               io
                                 C




                                                                  io




                                                                                                                             io


       70%
                                                                                                                             e




                                                                                                                            te
                                                                                                                            ni




                                                                                                                            ct
                                                   an




                                                                                                                           si
                                                                                                                         sm
                                                                ct




                                                                                                                          at
                                                                                                                          ai




                                                                                                                         ro
                                                                                                                         te
                                                                                                                         ui
                                                              te




                                                                                                                       ity


                                                                                                                      rm
                                                 en




                                                                                                                       Tr




                                                                                                                       P
                                                                                                                     es




                                                                                                                      ro
                                                                                                                     cq
                                                            ro




                                                                                                                    ur


                                                                                                                   fo
                                                 nt




                                                                                                                  ns
       60%




                                                                                                                  lP
                                                                                                                   &




                                                                                                                    s




                                                                                                                   A
                                                           P




                                                                                                                 ec




                                                                                                                As
                                                                                                                 In
                                               ai




                                                                         s




                                                                                                               tio
                                                                                                              ity
                                                                                                             es




                                                                                                               ta
                                                          ia
                                              M




                                                                       es




                                                                                                             S



                                                                                                             d




                                                                                                          en
                                                        ed




                                                                                                          ity




                                                                                                            a
                                                                                                             l
                                                                                                           ic




                                                                                                          bi
                                                                                                         an
                                                                     en




                                                                                                          el




                                                                                                         ic
       50%
                                                                                                        rv




                                                                                                       nm
                                                                                                        ta
                                                       M




                                                                                                        ur
                                                                                                       nn




                                                                                                       un
                                                                  ar




                                                                                                      m




                                                                                                       e



                                                                                                     un
                                                                                                     ec




                                                                                                     S
                                                                                                   so




                                                                                                     m
                                                                                                     n



                                                                                                   iro
                                                                 w




                                                                                                    te




                                                                                                 tio
                                                                                                 co
                                                                                                ,S




                                                                                                  d




                                                                                                 m
                                                                A




       40%
                                                                                                ys
                                                                                                er




                                                                                               nv
                                                                                              an




                                                                                                e
                                                                                               a




                                                                                               o
                                                                                              Ac
                                                                                              A
                                                                                              P




                                                                                             ns
                                                                                              S




                                                                                             ic



                                                                                             E



                                                                                             C
                                                                                            &



                                                                                            m




                                                                                           nt




                                                                                          po
                                                                                           d




                                                                                          l&
                                                                                           C




                                                                                           &
                                                                                        an
                                                                                         te




       30%                                                                              he




                                                                                        m



                                                                                      es
                                                                                      ca
                                                                                      ys




                                                                                     ut




                                                                                    te
                                                                                     it




                                                                                   R
                                                                                   si
                                                                                   S



                                                                                 ud



                                                                                 -a




                                                                                ys
                                                                               hy




                                                                                nt
                                                                               E
                                                                               A




       20%



                                                                              S



                                                                             de
                                                                              P




                                                                           ci
                                                                         In
       10%

        0%




The following sections discuss the six security control areas for which more than one-third of
tested data centers had gaps.

Access Control

According to GAO’s FISCAM, inadequate access controls diminish the reliability of
computerized data and increase the risk of destruction or inappropriate disclosure of data. Gaps
in access control create vulnerabilities in the confidentiality, integrity, and availability of
Medicare data and systems. Associated gaps in the configuration of systems software that
control access to systems can make computers vulnerable to unauthorized access.

Six of the six data centers (100 percent) tested for access control had gaps. Examples of these
gaps included the ability to read files containing personal health information on the mainframe
system, users having unnecessary update access to many system files, and the ability to access
sensitive data from Internet-facing Web servers.

                                                                               12
Identification and Authentication

FIPS 200 and NIST SP 800-53 require organizations to develop, disseminate, and periodically
review or update identification and authentication policies and procedures. Authentication of an
individual’s identity is a fundamental component of physical and logical access control
processes. A common threat to an organization’s servers is that sensitive information on the
server may be read by unauthorized individuals or changed in an unauthorized manner.

Five of the six data centers (83 percent) tested for identification and authentication controls had
gaps. Examples included the lack of policies and procedures for identification and authentication
controls, user account passwords that did not comply with CMS policy, and the use of an older
version of an authentication protocol.

Configuration Management

GAO’s FISCAM indicates that without proper configuration management, security features
could accidentally or intentionally be turned off. In addition, processing irregularities or
malicious code could be introduced that might allow access to sensitive data or remote control of
a system. NIST SP 800-70, “Security Configuration Checklists Program for IT Products,”
identifies the use of security configuration checklists as a way to provide a consistent approach
to systems security and help protect against common and dangerous local and remote threats.

JANUS identified multiple gaps at four of the six data centers (67 percent) tested in this area.
Examples with high risk were the use of insecure protocols over the Internet; unnecessary
services running on servers, which increase the risk of unauthorized access; and the use of
unsupported operating systems on the network.

Maintenance

FIPS 200 and NIST SP 800-53 require organizations to develop, disseminate, and periodically
review or update system maintenance policies and procedures, provide timely maintenance, and
maintain maintenance records for the information system.

Seven of fourteen data centers (50 percent) tested for maintenance controls had gaps. Examples
included the critical security patches not being installed in a timely manner, lack of documented
policies and procedures for maintenance controls, and inadequate maintenance logs.

Media Protection

According to GAO’s FISCAM, media containing sensitive information that has not been
sanitized may be recovered and the information inappropriately used or disclosed by individuals
who have access to the discarded or transferred media. The unauthorized access to sensitive
information could result in a serious adverse effect.

Six of the fourteen data centers (43 percent) tested for media protection controls had gaps.
Examples included the lack of policies and procedures for the storage and labeling of media and

                                                13
the lack of degaussing of expired or re-used media, which could lead to the disclosure of
sensitive Medicare information.

Awareness and Training

FIPS 200 and NIST SP 800-53 require organizations to develop, disseminate, and periodically
review or update security and awareness policies and procedures, provide security and awareness
training before granting access to information systems, and maintain records of information
system security training activities.

Five of fourteen data centers (36 percent) tested for awareness and training controls had gaps.
Examples included lack of policies for awareness and training, inadequate training in
organizational policies and procedures, and lack of security training before granting access to
sensitive information.

CONCLUSION

The work performed by PwC to evaluate contractor information security programs adequately
encompassed the eight FISMA requirements referenced in section 1874A of the Act. Gaps
reported during the PwC program evaluations were supported by documented evidence.

However, we could not determine the extent and sufficiency of the JANUS work for the data
center technical assessments because of several issues with its working papers. In many
instances, the documentation supplied by JANUS did not provide evidence of the testing
procedures performed at the data centers. The documentation JANUS provided did not always
indicate whether JANUS actually completed each testing procedure, and cross-references to
supporting documentation were missing for many of the test procedures. In most cases, we were
unable to trace gaps presented in JANUS’s final reports to supporting evidence. Because the
documentation provided by JANUS did not reasonably ensure that JANUS completed the work
CMS engaged it to do, we could not determine whether JANUS reported all medium- or high-
risk gaps and adequately supported all gaps that were included in the reports.

RECOMMENDATION

We recommend that CMS review all contractor documentation related to future data center
technical assessments and ensure that the work performed complies with CMS contractual
requirements. At a minimum, this should include a review of test plans to ensure that the
contractor has completed all required testing procedures and a review of contractor working
papers to verify that reported gaps have been adequately supported, identified, and included in
the technical assessment reports.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments to our draft report, CMS concurred with our recommendation. CMS also
stated that it has taken the appropriate actions to address the identified issues. We have included
CMS’s comments in their entirety in Appendix G.

                                                14
APPENDIXES
              APPENDIX A: ASSESSMENT OF SCOPE AND SUFFICIENCY
                  FOR THE JANUS DATA CENTER ASSESSMENTS

                           Office of Inspector General Criteria for Assessing
                                        JANUS Working Papers
                Sufficient Evidence             Sufficient
                That All Work Was        Documentation for All     Reported All Medium-
Data Center        Performed?               Reported Gaps?          and High-Risk Gaps?
     1                  Yes                        Yes                      Yes
     2                   No                        No                   Inconclusive*
     3                   No                        No                   Inconclusive*
     4                  Yes                        Yes                      Yes
     5                   No                        Yes                       Yes
     6                   No                 No Gaps Reported            Inconclusive*
     7                   No                        Yes                       Yes
     8                  Yes                        No                        No
     9                   No                        No                   Inconclusive*
    10                   No                        No                        Yes
    11                   No                        No                   Inconclusive*
    12                   No                        No                   Inconclusive*
    13                   No                        No                   Inconclusive*
    14                   No                        Yes                       Yes

*Because of deficiencies with JANUS working papers, we were unable to determine whether
JANUS had reported all medium- and high-risk gaps.
                            APPENDIX B: LIST OF GAPS BY
               FEDERAL INFORMATION SECURITY MANAGEMENT ACT OF 2002
                     CONTROL AREA AND MEDICARE CONTRACTOR

                                            Control Areas (With Impact Levels)
                            Policies    Security
                              and       Program
              Periodic     Procedures      and       Security    Testing                        Continuity
                Risk       To Reduce    Security Awareness         of     Remedial   Incident      of
Medicare     Assessments      Risk        Plans     Training Controls      Actions   Response   Operations   Total
Contractor     (High)        (High)      (High)       (High)     (High)   (Medium)    (High)     (High)      Gaps
    1             0             0           0           0           1          0         0          0          1
    2             0             0           0           0           0          0         0          0          0
    3             0             1           1           1           2          0         0          0          5
    4             0             0           0           0           0          0         0          0          0
    5             0             0           0           0           0          0         0          0          0
    6             0             1           1           2           6          0         0          0         10
    7             0             3           1           2           2          0         0          0          8
    8             0             2           1           1           3          0         0          0          7
    9             0             3           0           0           2          0         0          0          5
   10             0             2           0           0           2          0         0          0          4
   11             0             0           1           1           3          0         0          0          5
   12             0             0           0           0           1          0         0          0          1
   13             0             0           1           0           0          0         0          1          2
   14             0             1           0           0           1          0         0          1          3
   15             1             2           1           0           1          0         0          1          6
   16             1             0           2           1           3          0         0          1          8
   17             0             1           1           3           2          0         0          0          7
   18             0             0           0           0           0          0         0          0          0
   19             0             0           0           0           0          0         0          0          0
   20             0             1           0           0           2          1         0          0          4
   21             0             1           1           1           1          0         0          0          4
   22             0             2           2           1           2          1         1          0          9
   23             0             0           0           0           2          0         0          0          2
   24             0             1           0           0           5          0         1          2          9
   25             0             0           1           1           2          0         0          0          4
   26             0             1           0           0           0          0         0          1          2
   27             0             0           0           0           1          0         1          1          3
   28             0             0           0           0           0          0         0          0          0
   29             0             0           1           0           0          0         0          0          1
  Total           2            22          15          14         44           2         3          8        110

     Note: Impact levels for Federal Information Security Management Act of 2002 (FISMA)
     control areas were derived by PricewaterhouseCoopers by taking the highest value from among
     the subcategories.
APPENDIX C: PERCENTAGE CHANGE IN GAPS PER MEDICARE CONTRACTOR
Contractor                        FY 2005                           FY 2006          % Change
     1                               0                                 1              100%
     2                             N/A                                 0               N/A
      3                               1                                 5               400
      4                               0                                 0                 0
      5                               0                                 0                 0
      6                               0                                 10              1000
      7                               0                                 8               800
      8                              11                                 7               (36)
      9                               0                                 5               500
     10                               1                                 4               300
     11                               1                                 5               400
     12                               2                                 1               (50)
     13                               6                                 2               (67)
     14                               0                                 3               300
     15                               4                                 6                50
     16                               1                                 8               700
     17                               0                                 7               700
     18                               0                                 0                0
     19                             N/A                                 0               N/A
     20                               6                                 4               (33)
     21                               2                                 4               100
     22                               2                                 9               350
     23                               1                                 2               100
     24                               1                                 9               800
     25                               7                                 4               (43)
     26                               5                                 2               (60)
     27                               8                                 3               (63)
     28                               1                                 0               (100)
     29                               3                                 1               (67)
Contractors No
  Longer in
  Program                            29                                 -                 -
   Total                             92                                110              20%
Note: Contractors listed as “N/A” were new Durable Medical Equipment Medicare Administrative
Contractors in FY 2006. FY = fiscal year
           APPENDIX D: MEDICARE CONTRACTOR CHANGE IN TOTAL GAPS
          BY FEDERAL INFORMATION SECURITY MANAGEMENT ACT OF 2002
                               CONTROL AREA


                   50
                   45
                   40
                   35
                   30
   Gaps




                                                                                                                               FY2005
                   25
                   20                                                                                                          FY2006
                   15
                   10
                    5
                    0




                                                                                                                           e


                                                                                                                          ns
                                            es




                                                                                        ls
                                                                           g




                                                                                                      ns
                                                             s
                            ts




                                                                                                                ns
                                                                         in



                                                                                      ro
                                                          an




                                                                                                                        io
                                        ur
                          en




                                                                                                   io
                                                                       in




                                                                                                              po
                                                                                   nt




                                                                                                                     at
                                                       pl
                                      ed




                                                                                                 t
                                                                   tr a




                                                                                              ac
                           m




                                                                                co




                                                                                                                   er
                                                                                                           es
                                                        y
                                   oc
                        ss




                                                    rit




                                                                                               l




                                                                                                                 op
                                                                   s




                                                                                                         tr
                                                                                            ia
                                                                               IT
                                 pr




                                                                es
                     se




                                                  cu




                                                                                         ed



                                                                                                       en



                                                                                                                     of
                                                                           of
                                                              en
                  As



                                 d


                                                se




                                                                                        em



                                                                                                     cid
                               an




                                                                                                                 ty
                                                                         g
                                                            ar
               k




                                           s




                                                                       in




                                                                                                                 ui
                                                                                                   In
                                                                                      .R
              s




                                            m
                            s




                                                        aw



                                                                     st




                                                                                                               in
           Ri



                          ie



                                         te




                                                                                               I.
                                                                   Te



                                                                                    VI




                                                                                                             nt
                        lic




                                                                                             VI
                                                       y
          I.




                                      ys




                                                                                                           Co
                                                   it
                      Po




                                                                 V.
                                                ur
                                 .S


                                              ec




                                                                                                        II.
                   II.



                                III




                                                                                                      VI
                                            .S
                                          IV




                                                                 FISMA Control Area


IT = Information technology
                                                                                      Page 1 of 5


     APPENDIX E: RESULTS OF MEDICARE CONTRACTOR EVALUATIONS
     FOR FEDERAL INFORMATION SECURITY MANAGEMENT ACT OF 2002
         CONTROL AREAS WITH THE GREATEST NUMBER OF GAPS

The “impact level” shown in Tables 1 through 4 on the following pages refers to the level of
adverse impact that could result from successful exploitation of a vulnerability in any of the
FISMA control areas. Impact can be described as high, medium, or low in light of the
organization’s mission and criticality and the sensitivity of the systems and data involved.
PricewaterhouseCoopers assigned a rating of high or medium impact to each of the subcategories
in the agreed-upon procedures developed by the Centers for Medicare & Medicaid Services
(CMS). It is important to note that the impact levels were assigned to subcategories of the
FISMA control areas, not the individual gaps identified within the control areas or subcategories.
Individual gaps were assigned an overall risk level on a subjective basis by
PricewaterhouseCoopers after taking into consideration the impact and likelihood of occurrence.
                                                                                         Page 2 of 5


TESTING OF INFORMATION SECURITY CONTROLS

The Medicare contractor information security program evaluations assessed five subcategories
related to the testing of information security controls. The evaluation reports identified a total of
44 gaps in this FISMA control area.

                    Table 1: Testing of Information Security Controls Gaps
                                                        No. of Total Gaps           Subcategory
                        Subcategory                       in This Area              Impact Level
     Management reports exist for the review and
     testing of information security policies and
     procedures, including network risk assessments,
1                                                               7*                       High
     accreditations and certifications, internal and
     external audits, security reviews, and penetration
     and vulnerability assessments.
     Annual reviews and audits are conducted to
     ensure compliance with FISMA guidance from
     the Office of Management and Budget for
2    reviews of security controls, including logical            5                        High
     and physical security controls, platform
     configuration standards, and patch management
     controls.
3    Change control management procedures exist.                9*                       High
     Change control procedures are tested by
4                                                              21*                       High
     management to ensure they are in use.
     Remedial action is being taken for issues noted in
5                                                               2                      Medium
     audits.
      Total                                                     44

*Indicates notable gap increase from FY 2005.
                                                                                        Page 3 of 5


POLICIES AND PROCEDURES TO REDUCE RISK

The Medicare contractor information security program evaluations assessed six subcategories
related to policies and procedures to reduce risk. The evaluation reports identified a total of 22
gaps in this FISMA control area.

                   Table 2: Policies and Procedures To Reduce Risk Gaps
                                                        No. of Total Gaps         Subcategory
                      Subcategory                         in This Area            Impact Level
    Management activities include security controls
    in the costs of developing new systems as part
1   of the system development life cycle.                        0                    High
    Procedures for software changes include steps
    to control the changes.
    Systems security controls have been tested and
2   evaluated. The system/network boundaries                    7*                    High
    have been subjected to periodic reviews/audits.
    Management has performed accreditations and
    certifications of major systems in accordance
3                                                                0                    High
    with FISMA policies, including security
    controls testing and documentation.
    Documentation exists that outlines reducing the
4   risk exposure identified in periodic risk                    0                    High
    assessments.
    Gaps in compliance exist based on a
    comparison of management’s compliance
5                                                                2                    High
    checklist and CMS’s core security
    requirements.
    Security policies and procedures include
6   controls to address platform security                       13*                  Medium
    configurations and patch management.
      Total                                                     22

*Indicates notable gap increase from FY 2005.
                                                                                       Page 4 of 5


SECURITY PROGRAM AND SYSTEM SECURITY PLANS

The Medicare contractor information security program evaluations assessed 11 subcategories
related to security program and system security plans. The evaluation reports identified a total of
15 gaps in this FISMA control area.

                Table 3: Security Program and System Security Plan Gaps
                                                   No. of Total
                                                   Gaps in This    Subcategory
                         Subcategory                  Area        Impact Level
         Security policies and procedures are
         included in the policies and procedures
       1 for control of the life cycle of systems,      0             High
         including accreditations and
         certifications.
         Owners and users are aware of security
       2                                                1             High
         policies.
         A security plan is documented and
       3                                                0             High
         approved.
       4 The plan is kept current.                      1             High
         Management ensures that corrective
       5                                                1             High
         actions are effectively implemented.
         Security employees have adequate
       6                                                5             High
         security training and expertise.
         Hiring, transfer, termination, and
       7                                                0             High
         performance policies address security.
         Employee background checks are
       8                                                2            Medium
         performed.
         A security management structure has
       9                                                0            Medium
         been established.
         Information security responsibilities are
      10                                                0            Medium
         clearly assigned.
         Management has documented that it
         periodically assesses the appropriateness
      11 of security policies and compliance with       5            Medium
         them, including testing of security
         policies and procedures.
          Total                                         15
                                                                                         Page 5 of 5


SECURITY AWARENESS TRAINING

The Medicare contractor information security program evaluations assessed six subcategories
related to security awareness training. The evaluation reports identified a total of 14 gaps in this
FISMA control area.

                          Table 4: Security Awareness Training Gaps
                                                     No. of Total
                                                       Gaps in      Subcategory
                          Subcategory                 This Area     Impact Level
          Annual refresher training for security is
      1                                                   1            High
          mandatory.
          Employees have received a copy of or
      2   have easy access to agency security             0           Medium
          procedures and policies.
          Employees have received a copy of the
      3                                                   3           Medium
          Rules of Behavior.
          Systematic methods are used to make
      4   employees aware of security (e.g., posters      0           Medium
          or booklets).
          Security professionals have received
          specific training for their job
          responsibilities, and the type and
      5                                                   6           Medium
          frequency of application-specific training
          provided to employees and contractor
          personnel are documented and tracked.
          Employee training and professional
      6   development have been documented and            4           Medium
          formally monitored.
            Total                                         14
  APPENDIX F: LIST OF GAPS BY NATIONAL INSTITUTE OF STANDARDS AND
       TECHNOLOGY SECURITY CONTROL AREA AND DATA CENTER




                                                     Data Center
   NIST Security                                                                            Total
   Control Area        1   2    3   4   5   6   7       8    9     10   11   12   13   14   Gaps
   Access Control      5   5    0   0   0   0   9      14    5     0    0    0    4    0     42
   Configuration
                       1   1    0   0   0   0   4      11    0     0    0    0    0    0     17
   Management
 Media Protection      0   2    1   2   0   0   0       2    0     0    0    1    0    1     9
   Certification,
 Accreditation, and
                       0   2    0   0   1   0   0       0    0     4    1    0    0    0     8
     Security
   Assessments
  Awareness and
                       0   1    1   0   2   0   0       1    0     2    0    0    0    0     7
     Training
    Maintenance        1   1    1   0   1   0   0       0    1     1    0    1    0    0     7
  Identification and
                       1   3    0   0   0   0   0       1    1     0    0    0    1    0     7
   Authentication
     System and
     Information       1   0    0   0   0   0   0       0    5     0    0    0    0    0     6
       Integrity
 System and Services
                       0   2    0   0   0   0   0       0    1     1    0    0    0    0     4
     Acquisition
 Personnel Security    0   1    0   0   0   0   0       1    0     0    0    0    0    0     2
      Audit and
                       0   0    0   0   0   0   2       0    0     0    0    0    0    0     2
    Accountability
     Physical and
    Environmental      0   0    0   0   0   0   0       0    0     0    0    0    1    0     1
      Protection
     System and
   Communications      0   1    0   0   0   0   0       0    0     0    0    0    0    0     1
      Protection
  Incident Response    0   0    0   0   0   0   0       0    0     1    0    0    0    0     1
  E-authentication     0   0    0   0   0   0   0       0    0     0    0    0    1    0     1

        Total          9   19   3   2   4   0   15     30   13     9    1    2    7    1    115


Note: JANUS reported no gaps in the following NIST security control areas: contingency
planning, security planning, and risk assessment.

NIST = National Institute of Standards and Technology
                                                                                                                                                Page 1 of2


APPENDIX G: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS 




    {~"4. 	                         D EPARlMENT OF HEALTH·& HUMAN SERVICES                                   Centers for Medicare & Medicaid Services


     ;ev ...d ;f(l . . . . . .
                                                                                                             Administrator
                                                                                                             Washington. DC 20201



                                                 . [SEP 24 ~

                                 TO: 	         Daniel R. Levinson 

                                               Inspector General 


                                 FROM:     ~e~~tar-

                                               Acting Administrator' 


                                 SUBJECT: 	    Office ofInspector General (OIG) Draft Report - Review ofMedicare Contractor
                                               lnjormaiion Security Program Evaiuations for Fiscal Year 2006,
                                               (A-I 8-07 -30290)


                                 Thank you for the opportunity to review and respond to the report on the Centers for Medicare &
                                 Medicaid Services (CMS) contractor information security program evaluation. We appreciate
                                 the efforts the OIG has taken to examine our information systems security program and INSERT
                                 work with CMS on the various issues identified by the audit. We believe this process furthers
                                 our efforts to maintain and advance the confidentiality, integrity and availability of all CMS
                                 programs.

                                 The OIG found that a eMS Security Test and Evaluation (ST&E) contractor did not adequately
                                 document its testing procedures. The OIG was unable to trace gaps presented in the ST&E
                                 contractor's final reports to supporting evidence. Due to the lack of documentation, the OIG was
                                 not able to determine whether JANUS reported all risk gaps or adequately supported all gaps that
                                 were included in the reports.

                                 CMS is in agreement with the 010" finding. CMS has taken appropriate steps to address the
                                 finding and the associated recommendations. The OIG's recommendations and our detailed
                                 comments and response are below.

                                 OIG Recommendation

                                 We recommend that CMS review all contractor documentation related to future data center
                                 technical assessments and ensure that the work performed complies with eMS' contractual
                                 requirements. At a minimum, this should include a review oftest plans to ensure that the
                                 contractor has completed all required testing procedures and a review of contractor working
                                 papers to verify that reported gaps have been adequately supported, identified, and included in
                                 the technical assessment reports.
                                                                                                 Page 2 of2




Page 2 - D~iel R. Levinso l1


eMS Response:

eMS concurs with the OIG's recommendation. eMS met with JANUS Associates in fiscal year
2007/2008 to address and discuss the identified issues. JANUS Associates agreed to adhere to a
more thorough and complete documentation of the test plans, test scripts, work paper
requirements, processes for verifying gaps, and review of testing requirements. As a result of
those meetings, eMS has updated the Statement of Work (SOW) and Security Test & Evaluation
(ST&E) processes to ensure the completeness of the working papers and adequacy of the work
performed in future ST&Es.

eMS has taken the appropriate actions to address the identified issues. We look forward to
working with the OIG on future audits.
